                 The Detroit Computing Center Adequately
                    Processed Paper Bank Secrecy Act
                Documents, but Quality Reviews Should Be
                 Implemented to Ensure Compliance With
                             Quality Standards

                                    March 2004

                       Reference Number: 2004-30-070




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                     March 9, 2004



       MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                      DIVISION


       FROM:                        Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

       SUBJECT:                     Final Audit Report - The Detroit Computing Center Adequately
                                    Processed Paper Bank Secrecy Act Documents, but Quality
                                    Reviews Should Be Implemented to Ensure Compliance With
                                    Quality Standards (Audit # 200330010)


       This report presents the results of our review of the processing of paper Bank Secrecy
       Act (BSA)1 documents at the Detroit Computing Center (DCC). The overall objectives of
       this review were to determine whether controls ensured paper filed BSA forms were
       processed timely and accurately to enhance the reliability of the Currency and Banking
       Retrieval System (CBRS) database and to determine whether the Internal Revenue
       Service’s (IRS) Detroit Computing Center (DCC) has taken necessary steps to prepare
       for the additional reporting requirements under the USA PATRIOT Act.2
       The BSA authorizes the Secretary of the Treasury to issue regulations requiring
       financial institutions and other persons to keep records and file reports that are
       determined to have a high degree of usefulness in criminal, tax, regulatory, intelligence,
       and counter-terrorism matters and to implement counter-money laundering programs
       and compliance procedures. The Secretary has delegated the duties and powers under
       the BSA to the Financial Crimes Enforcement Network bureau (FinCEN), which, in turn,
       relies on the IRS to process most paper and electronically filed forms required under the



       1
         Titles I and II of Public Law 91-508, as amended, codified at 12 U.S.C. § 1829b, 12 U.S.C. §§ 5311-5330.
       Regulations implementing Title II of the BSA (codified at 31 U.S.C. §§ 5311-5330) appear at 31 C.F.R. Part 103.
       2
         Uniting and Strengthening America by Providing Appropriate Tools Required to Intercept and Obstruct Terrorism
       (“USA PATRIOT Act”) Act of 2001, Pub. L. No. 107-56, 115 Stat. 272 (2001).
                                                      2


BSA. The Secretary of the Treasury recently reported to the Congress3 on the
importance of the IRS in processing BSA information and recommended the IRS
continue in this role. The report cited the IRS, and its DCC, for the wide range of
functions it performs – receiving the forms, posting the information into a database, and
answering questions from filers and potential filers.
The events of September 11, 2001, increased the emphasis on BSA documents to aid
in identifying terrorist funding sources. Further, the USA PATRIOT Act increased the
challenges the IRS must meet and the tasks it must perform to support the FinCEN.
In summary, controls similar to those used by the IRS for processing tax returns are in
place to ensure BSA forms are processed timely and accounted for properly. In
addition, the DCC has been able to manage the additional processing requirements
resulting from enactment of the USA PATRIOT Act.
Forms are, for the most part, accurately processed. The IRS has contracted with a
private party to enter data from the paper filed BSA forms into the CBRS database. The
contract specifies that certain information, such as names, account numbers, Employer
Identification Numbers, and transaction amounts, will be entered twice, or key verified,
to ensure the accuracy of the data. Because of the importance of the verified data, the
contractor’s requirement for input quality is 99 percent. The quality standard for the
remaining nonverified data is 97 percent.
We reviewed 300 BSA documents and found the contractor substantially met the
required 99 percent accuracy rate for key-verified information items. While the
nonverified information did not meet the 97 percent accuracy rate, we concluded the
effect of this was minimal. Even though 44 (14.7 percent) of the 300 cases reviewed
had exceptions, we believe most of the differences involved details that would not be of
primary importance to law enforcement agencies querying the CBRS database.
However, the DCC does not currently perform a quality review of samples of completed
work, which would allow it to evaluate whether the contractor is meeting the specified
quality requirements. We believe a measured review process is necessary to ensure
the quality of information input to the CBRS database and the overall integrity of the
system. We recommended the Director, Compliance, Small Business/Self-Employed
(SB/SE) Division, implement such a quality review program/function.
Management’s Response: IRS management agreed with the recommendation. The
Field Director, Compliance Services, Cincinnati Campus, SB/SE Division, will develop a
statistically reliable quality review process to periodically evaluate the accuracy of BSA
documents processed by the contractor. Management’s complete response to the draft
report is included as Appendix V.
Copies of this report are also being sent to the IRS managers affected by the report
recommendation. Please contact me at (202) 622-6510 if you have questions or
Richard J. Dagliolo, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (631) 654-6028.

3
 A Report to Congress in Accordance with § 357 of the Uniting and Strengthening America by Providing
Appropriate Tools Required to Intercept and Obstruct Terrorism Act of 2001 (USA PATRIOT Act), April 26, 2002.
         The Detroit Computing Center Adequately Processed Paper Bank Secrecy
               Act Documents, but Quality Reviews Should Be Implemented
                       to Ensure Compliance With Quality Standards




                                                  Table of Contents


Background ............................................................................................... Page 1
Controls Generally Ensured Timely and Accurate Processing
for Bank Secrecy Act Documents .............................................................. Page 2
The Detroit Computing Center Has Timely Processed All Additional
Forms Required by the USA PATRIOT Act ............................................... Page 3
The Quality of Input to the Currency and Banking Retrieval System
Database Is Adequate, but Quality Reviews Should Be Implemented
to Ensure Standards Are Met .................................................................... Page 4
         Recommendation 1: ........................................................................ Page 6

Appendix I – Detailed Objectives, Scope, and Methodology ..................... Page 7
Appendix II – Major Contributors to This Report........................................ Page 9
Appendix III – Report Distribution List ....................................................... Page 10
Appendix IV – Financial Crimes Enforcement Network (FinCEN) Bank
Secrecy Act Forms .................................................................................... Page 11
Appendix V – Management’s Response to the Draft Report ..................... Page 12
       The Detroit Computing Center Adequately Processed Paper Bank Secrecy
             Act Documents, but Quality Reviews Should Be Implemented
                     to Ensure Compliance With Quality Standards

                               The Bank Secrecy Act (BSA)1 authorizes the Secretary of
Background
                               the Treasury to issue regulations requiring financial
                               institutions and other persons to keep records and file
                               reports that are determined to have a high degree of
                               usefulness in criminal, tax, regulatory, intelligence, and
                               counter-terrorism matters and to implement counter-money
                               laundering programs and compliance procedures. The
                               Secretary has delegated the duties and powers under the
                               BSA to the Financial Crimes Enforcement Network bureau
                               (FinCEN), which, in turn, relies on the Internal Revenue
                               Service (IRS) to process most paper and electronically filed
                               forms required under the BSA.
                               The Secretary of the Treasury recently reported to the
                               Congress2 on the importance of the IRS in processing BSA
                               information and recommended the IRS continue in this role.
                               The report cited the IRS, and its Detroit Computing Center
                               (DCC), for the wide range of functions it performs –
                               receiving the forms, posting the information into a database,
                               and answering questions from filers and potential filers.
                               The Currency Transaction Report (CTR) (Form 4789) is
                               used by financial institutions to report currency transactions
                               in excess of $10,000 and accounts for over 90 percent
                               (12.3 million last year) of BSA documents filed. A
                               Suspicious Activity Report for Depository Institutions
                               (SAR) (Form TD F 90-22.47) is filed for a transaction
                               involving at least $5,000 that a financial institution knows,
                               suspects, or has reason to suspect was derived from illegal
                               activities. Other forms are used by specific businesses, such
                               as casinos or money service businesses, to report suspicious
                               or large currency transactions. (See Appendix IV for a more
                               detailed list of BSA forms.)



                               1
                                 Titles I and II of Public Law 91-508, as amended, codified at
                               12 U.S.C. § 1829b, 12 U.S.C. §§ 5311-5330. Regulations implementing
                               Title II of the BSA (codified at 31 U.S.C. §§ 5311-5330) appear at
                               31 C.F.R. Part 103.
                               2
                                 A Report to Congress in Accordance with § 357 of the Uniting and
                               Strengthening America by Providing Appropriate Tools Required to
                               Intercept and Obstruct Terrorism Act of 2001 (USA PATRIOT Act),
                               April 26, 2002.
                                                                                          Page 1
        The Detroit Computing Center Adequately Processed Paper Bank Secrecy
              Act Documents, but Quality Reviews Should Be Implemented
                      to Ensure Compliance With Quality Standards

                                 During Calendar Year 2002, 13.5 million BSA forms were
                                 processed by the DCC; the majority were received
                                 electronically. Approximately 30 percent, or about
                                 4 million forms, were filed on paper.
                                 Paper BSA forms are received, controlled, and edited at the
                                 DCC. The actual transcribing of the paper filed BSA forms
                                 for input to a database is contracted out to a private firm.
                                 After input, the DCC performs additional steps to perfect
                                 and correct any identified problems. Information from both
                                 paper filed and electronically filed forms resides in the
                                 Currency and Banking Retrieval System (CBRS) database,
                                 which can be researched by Federal, state, and local law
                                 enforcement organizations.
                                 The events of September 11, 2001, increased the emphasis
                                 on BSA documents to aid in identifying terrorist funding
                                 sources. Further, the USA PATRIOT Act3 increased the
                                 challenges the IRS must meet and the tasks it must perform
                                 to support the FinCEN.
                                 Audit work was performed at the DCC. The audit was
                                 conducted from July through October 2003 in accordance
                                 with Government Auditing Standards. Detailed information
                                 on our audit objectives, scope, and methodology is
                                 presented in Appendix I. Major contributors to the report
                                 are listed in Appendix II.
                                 Our criteria for evaluating controls over the processing of
Controls Generally Ensured
                                 BSA documents was based on our experience in evaluating
Timely and Accurate Processing
                                 controls as they relate to the processing of tax forms at IRS
for Bank Secrecy Act
                                 processing centers. With only a couple of exceptions and
Documents
                                 caveats, we found that the DCC has implemented controls
                                 similar to those in place for processing Federal tax returns.
                                 Controls such as numbering, batching, and transmittal
                                 procedures are in place to ensure BSA forms are processed

                                 3
                                   Uniting and Strengthening America by Providing Appropriate Tools
                                 Required to Intercept and Obstruct Terrorism (“USA PATRIOT Act”)
                                 Act of 2001, Pub. L. No. 107-56, 115 Stat. 272 (2001). The Act added
                                 reporting requirements for businesses such as securities and futures
                                 industries, casinos and card clubs, and money services businesses.
                                 Rules have been proposed for other businesses such as travel agencies,
                                 dealers in precious metals and stones, and vehicle dealers.
                                                                                                 Page 2
          The Detroit Computing Center Adequately Processed Paper Bank Secrecy
                Act Documents, but Quality Reviews Should Be Implemented
                        to Ensure Compliance With Quality Standards

                                  timely and accounted for properly. Computer checks ensure
                                  the validity of certain data, such as zip codes, state
                                  abbreviations, Social Security Numbers, and Employer
                                  Identification Numbers (EIN). Management controls, such
                                  as work plans and inventory reports, are used to monitor
                                  work received and in process and to ensure timely
                                  completion of that work. Reports are available to monitor
                                  the types and numbers of validity errors and are useful in
                                  identifying trends or areas of potential concern.
                                  The number and extent of validity checks performed and
                                  information required by the DCC for various BSA forms is
                                  determined by agreement with the FinCEN. However,
                                  validity checks on BSA documents are less effective than
                                  those performed on tax forms because of the nature of the
                                  documents. Certain checks for tax forms can be tied to
                                  computational formulas (e.g., the various types of income
                                  should equal a certain total, and taxable income times the
                                  applicable tax rate should equal a certain income tax figure).
                                  Information on BSA forms is more general and descriptive
                                  in nature; validity checks cannot be used as effectively on
                                  this type of information.
                                  We found that forms were timely processed to the CBRS
The Detroit Computing Center
                                  database. In addition, the DCC has been able to manage the
Has Timely Processed All
                                  additional processing requirements resulting from enactment
Additional Forms Required by
                                  of the USA PATRIOT Act. The total number of paper
the USA PATRIOT Act
                                  forms filed did not increase significantly, in part because of
                                  offsets due to increases in the number of returns filed
                                  electronically. In fact, electronically filed BSA forms have
                                  grown from 49 percent of the total in 1993 to over
                                  70 percent in 2002.




                                                                                         Page 3
          The Detroit Computing Center Adequately Processed Paper Bank Secrecy
                Act Documents, but Quality Reviews Should Be Implemented
                        to Ensure Compliance With Quality Standards

                                   The IRS has contracted with a private party to enter data
The Quality of Input to the
                                   from paper filed BSA forms into the CBRS database. The
Currency and Banking Retrieval
                                   contract specifies that certain information, such as names,
System Database Is Adequate, but
                                   account numbers, EINs, and transaction amounts, will be
Quality Reviews Should Be
                                   entered twice, or key verified,5 to ensure the accuracy of the
Implemented to Ensure
                                   data. Because of the importance of the verified data, the
Standards Are Met
                                   contractor’s requirement for input quality is 99 percent. The
                                   quality standard for the remaining nonverified data is
                                   97 percent.
                                   Based on our review of statistical samples of documents
                                   input to the CBRS database, we determined the verified data
                                   met the 99 percent quality standard, but the nonverified data
                                   did not meet the 97 percent standard. We reviewed
                                   300 BSA documents (250 CTRs and 50 other BSA forms)
                                   processed from January 1, 2002, to March 31, 2003, to
                                   determine whether information from these forms was
                                   properly input to the CBRS database. We found the DCC
                                   and its contractor substantially met quality standards for
                                   items that required 99 percent accuracy. Only
                                   4 (1.3 percent) of 300 forms had incorrect entries in the
                                   more important/verified fields. Only 2 (0.8 percent) of the
                                   250 CTRs were entered incorrectly. Although the 50 other
                                   BSA forms had 2 exceptions (4 percent), the errors were
                                   lessened by the number of transactions those forms reported.
                                   CTRs generally represent one transaction per form. Other
                                   BSA forms, however, such as the SAR, may report on
                                   several transactions that are designed to circumvent CTR
                                   reporting requirements. Similarly, the Report of
                                   Foreign Bank and Financial Accounts (FBAR)
                                   (Form TD F 90-22.1) may include information regarding
                                   many foreign accounts. In fact, just 5 of the 50 non-CTR
                                   forms in our sample involved information concerning
                                   61 different accounts or transactions. In our opinion, this
                                   further diluted our overall exception rate of 1.3 percent to
                                   effectively meet the established 99 percent accuracy rate for
                                   this information.



                                   5
                                    Key verification is a process of verifying information entered into a
                                   computer system by having the same information entered a second time
                                   and resolving any differences between the two entries.
                                                                                                  Page 4
The Detroit Computing Center Adequately Processed Paper Bank Secrecy
      Act Documents, but Quality Reviews Should Be Implemented
              to Ensure Compliance With Quality Standards

                        For the nonverified information, 44 (14.7 percent) of the
                        300 cases we reviewed had 1 or 2 discrepancies between
                        what was on the document and what was input to the CBRS
                        database. While this resulted in not meeting the 97 percent
                        quality standard, the effect was minimal. Over one-half of
                        these differences involved details regarding the institution
                        that filed the forms, such as the specific person who
                        prepared the form or the Magnetic Ink Character
                        Recognition number of the bank. These exceptions are not
                        as significant when, for example, a bank’s name and EIN
                        are accurately input. We also do not believe these types of
                        information items would be of primary importance to law
                        enforcement agencies querying the database.
                        The contract for entry of data into the CBRS database states
                        the IRS is responsible for monitoring the contractor’s
                        performance using both computer-generated error listings
                        and random sampling methods. Further, the General
                        Accounting Office Standards for Internal Control in the
                        Federal Government specify that management conduct
                        reviews to compare actual performance with planned or
                        expected results and analyze significant differences.
                        The DCC did not have a quality review function in place to
                        review samples of completed work and, therefore, could not
                        make an accurate statement regarding the contractor’s
                        compliance with the required quality standards. Instead, the
                        DCC has relied on the computer-generated error listings
                        based on the various validity checks. These listings are a
                        valuable tool, but they have limitations. The error listings
                        identify exceptions for only those fields that have specific
                        validity checks, and they are limited to the criteria designed
                        for those fields. Errors that might not be identified by
                        validity checks could include misspellings when the validity
                        requirement is for alpha characters or transposed numbers in
                        a field requiring numbers. On the other hand, validity errors
                        may not necessarily be due to input errors by the contractor
                        but may represent improperly prepared returns. A quality
                        review can identify errors outside of the validity checks and
                        can determine whether the IRS, the contractor, or the return
                        filer was responsible for these exceptions.


                                                                               Page 5
The Detroit Computing Center Adequately Processed Paper Bank Secrecy
      Act Documents, but Quality Reviews Should Be Implemented
              to Ensure Compliance With Quality Standards

                        Although the Standards for Internal Control in the Federal
                        Government call for internal controls, they state further that
                        the controls should be implemented and designed based on
                        the related cost and benefits. We believe a measured review
                        process is necessary to ensure the quality of information
                        input to the CBRS database and the overall integrity of the
                        system. However, based on the error rates we identified in
                        our samples, a periodic quality review may suffice and be
                        more cost effective than an ongoing quality review.

                        Recommendation

                        1. The Director, Compliance, Small Business/
                           Self-Employed (SB/SE) Division, should establish a
                           Quality Review function/process to perform, on either
                           an ongoing or periodic basis, statistically valid reviews
                           of documents input to the CBRS database to determine
                           the causes of any identified problems and to implement
                           appropriate corrective measures.
                        Management’s Response: The Field Director, Compliance
                        Services, Cincinnati Campus, SB/SE Division, will develop
                        a statistically reliable quality review process to periodically
                        evaluate the accuracy of work to prepare BSA filings for
                        input by the keying contractor and to evaluate the input by
                        that contractor.




                                                                                 Page 6
          The Detroit Computing Center Adequately Processed Paper Bank Secrecy
               Act Documents, but Quality Reviews Should Be Implemented
                       to Ensure Compliance With Quality Standards

                                                                                                 Appendix I


                        Detailed Objectives, Scope, and Methodology

Our overall objectives of this review were to determine whether controls ensured paper filed
Bank Secrecy Act (BSA)1 forms were processed timely and accurately to enhance the reliability
of the Currency and Banking Retrieval System (CBRS) database and to determine whether the
Detroit Computing Center (DCC) has taken necessary steps to prepare for the additional
reporting requirements under the USA PATRIOT Act.2
To accomplish our objectives, we:
I.      Determined whether controls were in place to ensure processing timeliness and accuracy.
        A. Reviewed manuals, job aids, and other documentation used to establish processing
           criteria for BSA documents and evaluated controls for processing BSA documents to
           determine whether they were equivalent to controls for processing Internal Revenue
           Service tax returns.
        B. Interviewed managers and analysts to identify and evaluate any additional controls.
        C. Reviewed suspense and correspondence procedures to determine whether information
           was timely obtained to perfect incomplete forms received by the DCC.
II.     Determined whether identified controls were working to ensure accuracy and timeliness
        in processing paper BSA forms.
        A. Obtained a computer file of 17 million BSA forms filed from January 1, 2002,
           through March 31, 2003, selected a statistically valid sample from the approximately
           4 million paper returns, and reviewed these returns for accuracy of input. The sample
           was broken down between 250 Currency Transaction Reports (CTR) (Form 4789)
           and 50 other BSA forms. The sample size allowed us to project our results on paper
           CTRs and the entire paper filed portion of the database using a 95 percent confidence
           level, reliability of +/- 5 percent, and an expected error rate of 20 percent or less.
        B. Interviewed managers and obtained documentation relating to trends in the nonpaper
           filing of BSA documents and regarding initiatives to increase the nonpaper filing of
           BSA documents.
        C. Selected a judgmental sample of 50 BSA forms, taken at random from trays of work
           received at the DCC on July 7 and 8, 2003, and researched subsequent postings to the

1
  Titles I and II of Public Law 91-508, as amended, codified at 12 U.S.C. § 1829b, 12 U.S.C. §§ 5311-5330.
Regulations implementing Title II of the BSA (codified at 31 U.S.C. §§ 5311-5330) appear at 31 C.F.R. Part 103.
2
  Uniting and Strengthening America by Providing Appropriate Tools Required to Intercept and Obstruct Terrorism
(“USA PATRIOT Act”) Act of 2001, Pub. L. No. 107-56, 115 Stat. 272 (2001).
                                                                                                       Page 7
        The Detroit Computing Center Adequately Processed Paper Bank Secrecy
             Act Documents, but Quality Reviews Should Be Implemented
                     to Ensure Compliance With Quality Standards

          CBRS database to determine whether all returns received were timely processed. A
          judgmental sample was necessary because we were limited to receipts available in the
          mailroom at the time of our onsite visit.
III.   Determined whether steps have been taken to accommodate any additional work based on
       enactment of the USA PATRIOT Act.
       A. Reviewed text and analysis of Title III, International Money Laundering Abatement
          and Anti-Terrorist Financing Act of 2001, of the USA PATRIOT Act as it relates to
          additional filing requirements affecting the DCC.
       B. Reviewed BSA regulations issued as a result of the USA PATRIOT Act and
          identified additional forms and the related number of returns that were estimated to be
          filed.
       C. Discussed with DCC management any additional filing requirements resulting from
          the Act, the volume of forms expected, and steps taken to ensure these filings will be
          timely processed. We included reviews of work plans to ensure significant increases
          in filings were considered in the budget process.
       D. Interviewed managers and quality review personnel in affected processing areas
          regarding any potential concerns caused by the USA PATRIOT Act, including system
          capacity concerns.




                                                                                         Page 8
        The Detroit Computing Center Adequately Processed Paper Bank Secrecy
             Act Documents, but Quality Reviews Should Be Implemented
                     to Ensure Compliance With Quality Standards

                                                                                 Appendix II


                           Major Contributors to This Report

Richard J. Dagliolo, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle R. Andersen, Acting Director
L. Jeff Anderson, Acting Audit Manager
Scott Critchlow, Senior Auditor
Greg Schmidt, Senior Auditor




                                                                                       Page 9
        The Detroit Computing Center Adequately Processed Paper Bank Secrecy
             Act Documents, but Quality Reviews Should Be Implemented
                     to Ensure Compliance With Quality Standards

                                                                           Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Acting Deputy Commissioner, Small Business/Self-Employed Division SE:S
Acting Director, Compliance, Small Business/Self-Employed Division SE:S:C
Director, Communications and Liaison, Small Business/Self-Employed Division SE:S:MS:CL
Deputy Director, Compliance Services, Small Business/Self-Employed Division SE:S:C:CS
Field Director, Compliance Services, Cincinnati, Small Business/Self-Employed Division
SE:S:C:CS:C
Staff Assistant, Small Business/Self-Employed Division SE:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 10
            The Detroit Computing Center Adequately Processed Paper Bank Secrecy
                 Act Documents, but Quality Reviews Should Be Implemented
                         to Ensure Compliance With Quality Standards

                                                                                         Appendix IV


       Financial Crimes Enforcement Network (FinCEN) Bank Secrecy Act Forms1

           Currency Transaction Report (CTR) (Form 4789)
           Currency Transaction Report by Casinos (CTRC) (Form 103) (formerly Form 8362)
           Currency Transaction Report by Casinos – Nevada (Form 8852)
           Report of Cash Payments Over $10,000 Received in a Trade or Business (Form 8300)
           Report of International Transportation of Currency or Monetary Instruments (CMIR)
           (Form 4790)
           Report of Foreign Bank and Financial Accounts (FBAR) (Form TD F 90-22.1)
           Suspicious Activity Report for Depository Institutions (SAR) (Form TD F 90-22.47)
           (formerly Suspicious Activity Report)
           Suspicious Activity Report by the Securities and Futures Industries (Form 101)
           Suspicious Activity Report by Casinos and Card Clubs (Form 102)
           Registration of Money Service Business (MSB) (Form TD F 90-22.55)
           Suspicious Activity Report by Money Services Business (Form TD F 90-22.56)
           Designation of Exempt Person (DEP) (Form TD F 90-22.53)




1
    FinCEN web site http://www.fincen.gov/reg_bsaforms.html listing, October 15, 2003.
                                                                                              Page 11
The Detroit Computing Center Adequately Processed Paper Bank Secrecy
     Act Documents, but Quality Reviews Should Be Implemented
             to Ensure Compliance With Quality Standards

                                                              Appendix V


            Management’s Response to the Draft Report




                                                                       Page 12
The Detroit Computing Center Adequately Processed Paper Bank Secrecy
     Act Documents, but Quality Reviews Should Be Implemented
             to Ensure Compliance With Quality Standards




                                                                       Page 13
